CERTIFICATE OF COMPLIANCE
No.
IN THE SUPREME COURT OF THE UNITED STATES
Joseph Constant
Petitioner
v.
DTE Electric company, aka DTE Energy, aka Detroit Edison
Company, aka DTE; Leland Prince, Shalina D. Kumar,
Michael David Warren Jr., Deborah A. Servitto, James M
Hammond, Cheryl A Matthews, Rae Lee Chabot, Karen M
Ft Hood, Jane M Beckering, Nanci J Grant
Respondents.
As required by Supreme Court Rule 33.1(h), I certify that the petition for a writ of
certiorari contains 8,932 words, excluding the parts of the petition that are exempt­
ed by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on August 31, 2021.

Joseph Constant
Pro Se Petitioner
49 Highland Drive
Bloomfield Hills MI 48302-0355
Tel’ 248-599-2680

